                Processes Used to Ensure the Accuracy of
                 Information for Individual Taxpayers on
                       IRS.gov Need Improvement

                                  February 2005

                       Reference Number: 2005-40-026




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      February 3, 2005


      MEMORANDUM FOR CHIEF INFORMATION OFFICER
                     COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                          Gordon C. Milbourn III
                                     Assistant Inspector General for Audit
                                     (Small Business and Corporate Programs)

      SUBJECT:                       Final Audit Report - Processes Used to Ensure the Accuracy of
                                     Information for Individual Taxpayers on IRS.gov Need
                                     Improvement (Audit # 200440023)


      This report presents the results of our review of the information provided to Wage and
      Investment (W&I) Division taxpayers on the Internal Revenue Service (IRS) public
      Internet site, IRS.gov. The overall objective of this review was to determine whether the
      IRS has an effective process to ensure the information provided to W&I Division
      taxpayers on IRS.gov is accurate.
      In summary, the IRS is committed to helping people understand their tax obligations
      and making it easier for them to participate in the tax system. One of the methods the
      IRS uses to accomplish this is through its award-winning public Internet web site,
      IRS.gov. There are over 13,000 pages of information on IRS.gov, including tax
      education, tax law guidance, and tax law application. IRS.gov is one of the most
      frequently visited Internet sites in the world. The IRS Commissioner recently stated,
      “. . . IRS.gov received more than 139 million visits1 this year, making it one of the
      government’s busiest sites.” In the future, the IRS envisions the public will be able to
      conduct the vast majority of tax interactions electronically.
      The IRS redesigned the web site in 2002 and decentralized responsibility for current
      and future content to its various operating divisions and functions. A large portion of the
      content on IRS.gov relates to individual taxpayers. The W&I Division serves these
      approximately 121 million individual taxpayers whose income comes from wages and

      1
        A “visit” is a series of actions that begins when a visitor views his or her first page from the server and ends when
      the visitor leaves the site or remains idle for more than 30 minutes.
                                                      2

investments, such as interest, dividends, or capital gains. This review focused only on
the W&I Division’s IRS.gov content.
The Data Quality Act2 required the Office of Management and Budget (OMB) to provide
guidance to Federal Government agencies to ensure the quality, objectivity, utility, and
integrity of information disseminated by Federal agencies, including information
disseminated via the Internet. In response to the OMB guidelines, the IRS developed
and issued its own high-level guidelines on September 30, 2002. The IRS also
implemented a customized content management software application called the
Content Management Application (CMA). This software application allows authorized
users to directly manage Internet content by adding, modifying, and deleting content on
IRS.gov.
In addition, the W&I Division was proactive in developing specific procedures that
W&I Division employees are to follow for publishing content on IRS.gov. However,
improvements are needed to the processes used to ensure W&I Division content on
IRS.gov is current and accurate. Sufficient management controls are not in place to
ensure only authorized individuals have access to IRS.gov content and all content is
tracked and reviewed prior to posting on IRS.gov. In addition, key quality assurance
procedures are not always followed to ensure the IRS responds to taxpayers that
submit comments to the IRS on potential web site errors and employees follow
procedures for reviewing content changes and documenting annual certifications.
To address these issues, we recommended the Chief Information Officer develop a
process to ensure only authorized personnel have access to IRS.gov, enhance the
content management software application (currently the CMA) to provide the ability to
identify specific content accessed or revised by an individual user, and ensure the
vendor reviewing feedback from IRS.gov appropriately forwards any comments
regarding inaccurate content. We also recommended the Commissioner, W&I Division,
revise procedures to include monitoring of IRS.gov content managed outside the CMA,
develop a process to monitor comments received via IRS.gov regarding potential
inaccuracies, and develop a process to ensure functional areas are consistently
adhering to review, approval, and annual certification procedures.
Management’s Response: IRS management agreed with our six recommendations and
developed corrective actions. For example, the IRS will:
       Develop a new section of Internal Revenue Manual (IRM) 2.25, IRS Portal and
        Extranet Usage Standard. This IRM section will outline the requirements for
        ensuring content on the IRS.gov web site is accurate and include guidelines for
        monitoring users’ access and permissions to content on IRS.gov.
       Explore upgrading the current CMA to a new version which will significantly
        enhance the process for assigning permissions and provide a more
        comprehensive auditing capability within the CMA.

2
 Section 515 of the Treasury and General Government Appropriations Act for Fiscal Year 2001,
Pub. L. No. 106-554, 114 Stat. 2763A-154.
                                           3

      Revise “Guidelines for Responding to IRS.gov Escalations” and IRM 11.55.1,
       W&I Division Internet Content Publishing Process Management Document, to
       provide specific guidance to the vendors for forwarding comments by users of
       IRS.gov and to W&I Division functions for monitoring and resolving those
       IRS.gov comments.
      Update IRM 11.55.1 to require each W&I Division function to maintain
       documentation to support the review and approval of content changes and the
       performance of the annual certification and to include newly implemented
       procedures for managing content outside the CMA tool.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (202) 927-0597.
                       Processes Used to Ensure the Accuracy of Information
                       for Individual Taxpayers on IRS.gov Need Improvement




                                                Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Has Developed Guidelines and
a Process to Manage IRS.gov Content ..................................................... Page 3
Improvements Are Needed to the Processes Used to Ensure
Wage and Investment Division Content on IRS.gov Is Accurate............... Page 4
         Recommendations 1 and 2: ...........................................................Page 10
         Recommendations 3 through 6:.....................................................Page 11

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Wage and Investment Division Organization Chart
Areas With IRS.gov Content ..................................................................... Page 17
Appendix V – Management’s Response to the Draft Report ..................... Page 18
             Processes Used to Ensure the Accuracy of Information
             for Individual Taxpayers on IRS.gov Need Improvement

                             The Internal Revenue Service (IRS) is committed to helping
Background
                             people understand their tax obligations and making it easier
                             for them to participate in the tax system. One method the
                             IRS uses to accomplish this is through its award-winning
                             public Internet web site, IRS.gov. There are over
                             13,000 pages of information on IRS.gov, including tax
                             education, tax law guidance, and tax law application.
                             The IRS has and is implementing more interactive
                             applications. One such application allows taxpayers to enter
                             information specific to their situations and determine
                             eligibility for and the amount of tax credits. For example,
                             using online applications, taxpayers can calculate
                             withholding credits or determine eligibility for and the
                             amount of the Earned Income Tax Credit. They can also
                             determine if their refunds have been processed. For some
                             taxpayers, IRS.gov provides links to sites where they can
                             file their tax returns at no cost.
                             When taxpayers understand their tax obligations and are
                             given tools that make it easier to meet them, they are more
                             likely to file their taxes and be in compliance with the law.
                             The IRS envisions the public will be able to conduct the
                             vast majority of tax interactions electronically. The IRS
                             plans to continue to improve electronic filing, payment, and
                             communication services via the Internet.
                             The IRS contracts with a vendor that hosts IRS.gov on the
                             Internet and staffs the IRS.gov Helpdesk for user assistance
                             with the web site. The Helpdesk provides support via
                             telephone, email, or web chat. It resolves most inquiries,
                             but those that cannot be resolved, such as inaccurate
                             information on IRS.gov, are forwarded to various IRS
                             functions for resolution. During the 2004 Filing Season,1
                             there were 90,811 contacts at the IRS.gov Helpdesk. Of
                             these contacts, 48,959 (54 percent) were emails.
                             The IRS redesigned the web site in 2002 and decentralized
                             responsibility for current and future content to the various
                             operating divisions and functions. The IRS Electronic Tax
                             Administration (ETA) Public Portal Office is responsible
                             for overseeing web site development and enhancements on

                             1
                               The period from January through mid-April when most individual
                             income tax returns are filed.
                                                                                          Page 1
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement

                IRS.gov. The Public Portal Office implemented an
                automated, decentralized content management system that
                allows the various IRS divisions and functions to manage
                their own content on the web site.
                A large portion of the content on IRS.gov relates to
                individual taxpayers. The Wage and Investment (W&I)
                Division is responsible for individual taxpayers and serves
                approximately 121 million individual taxpayers whose
                income is from wages and investments, such as interest,
                dividends, or capital gains. This review focused only on the
                W&I Division’s IRS.gov content. Appendix IV provides an
                organization chart of the W&I Division outlining the areas
                that own content on IRS.gov.

                The IRS Internet site is one of the most frequently visited
                sites in the world. The IRS Commissioner recently stated,
                “. . . IRS.gov received more than 139 million visits2 this
                year, making it one of the government’s busiest sites.” Use
                is at its highest during the tax return filing season, with a
                sizeable percentage of individuals viewing or visiting W&I
                Division content. Figure 1 shows a dramatic increase in use
                from the 2003 to 2004 Filing Seasons.
                       Figure 1: Number of Page Views3 and Visits on IRS.gov –
                                    2003 and 2004 Filing Seasons

                    Millions

                      600
                                                                Page Views
                      500                                       575 Million
                      400         Page Views
                      300         371 Million
                      200                                                       Visits
                                                  Visits
                      100                       56 Million                    83 Million

                        0
                               2003 Filing Season            2004 Filing Season

                Source: IRS statistics.



                2
                  A “visit” is a series of actions that begins when a visitor views his or
                her first page from the server and ends when the visitor leaves the site or
                remains idle for more than 30 minutes.
                3
                  “Page views” is a measurement of the number of times that a webpage
                is viewed from a web server.
                                                                                           Page 2
                   Processes Used to Ensure the Accuracy of Information
                   for Individual Taxpayers on IRS.gov Need Improvement

                                   This review was performed at the ETA office in the
                                   Modernization and Information Technology Services
                                   organization at the IRS National Headquarters in
                                   Washington, D.C.; the W&I Division Headquarters in
                                   Atlanta, Georgia; and W&I Division offices in
                                   Cincinnati, Ohio, during the period May through
                                   October 2004. In addition, we performed a walk-through in
                                   Peoria, Illinois, where the vendor processes inquiries
                                   submitted to the IRS.gov Helpdesk.
                                   The audit was conducted in accordance with Government
                                   Auditing Standards. Detailed information on our audit
                                   objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   The Data Quality Act4 required the Office of Management
The Internal Revenue Service Has
                                   and Budget (OMB) to provide guidance to Federal
Developed Guidelines and a
                                   Government agencies to ensure the quality, objectivity,
Process to Manage IRS.gov
                                   utility, and integrity of information disseminated by Federal
Content
                                   agencies, including information disseminated via the
                                   Internet. To comply with this Act, the OMB issued
                                   Government-wide guidelines on February 22, 2002.
                                   In response to the OMB guidelines, the IRS developed and
                                   issued its own high-level guidelines on September 30, 2002.
                                   The guidelines describe the categories of information
                                   disseminated by the IRS and the steps taken to comply with
                                   the Act. Specifically, the guidelines describe procedures the
                                   IRS should use to ensure the quality of its information
                                   products, including its utility, objectivity, and integrity.
                                   These guidelines apply to information disseminated to the
                                   public in any medium, including information posted on
                                   IRS.gov.
                                   After the IRS issued its high-level agency guidelines, the
                                   W&I Division was proactive in developing its own
                                   processes with specific procedures for its employees to
                                   follow when publishing content on IRS.gov. These
                                   procedures detail steps, for example, for obtaining
                                   management approval for all new content before it is
                                   published on IRS.gov and for conducting annual reviews of

                                   4
                                    Section 515 of the Treasury and General Government Appropriations
                                   Act for Fiscal Year 2001, Pub. L. No. 106-554, 114 Stat. 2763A-154.
                                                                                                Page 3
                   Processes Used to Ensure the Accuracy of Information
                   for Individual Taxpayers on IRS.gov Need Improvement

                                   all content to ensure it is accurate and current. The Public
                                   Portal Office also developed general guidelines outlining the
                                   process to be followed by the IRS to manage content on
                                   IRS.gov.
                                   In addition to the development of guidelines, the IRS
                                   implemented a customized software application called the
                                   Content Management Application (CMA). This software
                                   application allows authorized users to directly manage
                                   Internet content by adding, modifying, or deleting content
                                   on IRS.gov. The majority of W&I Division IRS.gov
                                   content is managed using the CMA. The remaining
                                   W&I Division content involves large amounts of
                                   information that is processed outside the CMA for improved
                                   performance and convenience. Much of the information
                                   posted outside the CMA is also produced on paper.
                                   Therefore, it is managed using a process referred to as “bulk
                                   upload” and includes:
                                   •   Over 150 Tax Topics. There are 17 main categories for
                                       which there are topics providing answers to general tax
                                       questions including, for example, General Information,
                                       Employer Tax Information, IRS Help Available, and
                                       Itemized Deductions. Three to 31 topics are provided
                                       for each main category.
                                   •   Over 800 Frequently Asked Questions (FAQ). There
                                       are 17 categories of FAQs, which include a wide range
                                       of topics such as Estimated Taxes, Pension and
                                       Annuities, IRS Procedures, and Social Security Income.
                                   •   Over 890 Publications, Tax Forms, and Instructions.
                                       For example, there are more than 450 tax forms,
                                       including the U.S. Individual Income Tax Return
                                       (Form 1040) and all related schedules, along with
                                       instructions for completing the forms and schedules.
                                   Though the W&I Division has developed and implemented
Improvements Are Needed to the
                                   procedures to ensure its IRS.gov content is accurate,
Processes Used to Ensure Wage
                                   sufficient management controls are not in place to ensure
and Investment Division Content
                                   only authorized individuals have access to IRS.gov content
on IRS.gov Is Accurate
                                   and all content is tracked and reviewed prior to posting on




                                                                                         Page 4
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement

                IRS.gov.5 In addition, key quality assurance procedures are
                not always followed.
                The permission process does not ensure only authorized
                individuals have access to content
                The process for assigning permissions and monitoring
                individuals that access IRS.gov content does not ensure only
                authorized individuals access and update IRS.gov content.
                From the May 14, 2004, permissions spreadsheet of
                56 personnel authorized to edit, delete, or publish
                W&I Division content on IRS.gov:
                •   One individual improperly had access to
                    W&I Division content.
                •   One individual’s information was not updated to
                    indicate a name change; the status of the individual’s
                    permissions could not be readily determined.
                •   Three individuals were misclassified as being
                    responsible for W&I Division content.
                The information for the individuals in the first two bullets
                was also incorrect within the CMA. The Public Portal
                Office maintains the permissions spreadsheet, which is
                manually compiled from information in the CMA
                permissions database. The Public Portal Office is also
                responsible for updating CMA access permissions.
                Inadequate procedures and limitations in the current
                CMA software contributed to these problems. Although
                procedures were developed for adding individual users to
                the CMA, procedures were not developed for updating or
                deleting permissions. When alerted to this condition, IRS
                management immediately developed and issued interim
                guidelines.
                In addition, the CMA functionality is limited and does not
                provide a complete audit trail or monitoring capabilities. It
                does not enable management to identify the specific content
                accessed by an individual. We provided management with a
                listing of the individuals with questionable permissions to

                5
                 This report deals only with the accuracy of the W&I Division’s
                IRS.gov content; any reference to IRS.gov content refers to
                W&I Division content only.
                                                                                  Page 5
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement

                determine if any content was accessed and/or revised
                inappropriately. Management stated that the current version
                of the CMA does not have the capability to search by
                individual user to see what changes each may have made to
                IRS.gov content. The current system does provide an audit
                trail of changes made to specific content items but only by a
                manual search for the specific item. Therefore, we were
                unable to identify any content changes made by the
                identified individuals/employees.
                Management controls require that access to resources and
                records be limited to authorized individuals and that
                accountability for the use of the resources be assigned and
                maintained. Access controls should restrict users to only
                those system functions necessary for them to do their jobs.
                The IRS stated that the CMA could have full audit trail and
                monitoring capabilities; however, it does not have the
                funding to add them to the current CMA.
                The monitoring process does not include IRS.gov
                content managed outside the CMA
                Changes to IRS.gov content recommended by subject matter
                experts and the IRS Office of Chief Counsel were not made
                before the content was posted on IRS.gov. Content items
                published outside the CMA are subject to an annual review
                to ensure the information is accurate. For example, the
                annual review requires subject matter experts to review each
                FAQ, and if the FAQ involves tax law, the Office of Chief
                Counsel must also review it. If necessary, the subject matter
                experts and the Office of Chief Counsel provide the
                W&I Division with the recommended revisions to the
                content. However, a review of a judgmental sample of
                115 FAQs available to taxpayers on IRS.gov identified:
                •   Six (26 percent) of 23 FAQs reviewed and revised by
                    the Office of Chief Counsel were not correctly updated
                    on IRS.gov.
                •   Eleven (12 percent) of 92 FAQs reviewed and revised
                    by subject matter experts were not correctly updated on
                    IRS.gov.



                                                                      Page 6
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement

                The nature of the errors would not likely result in a taxpayer
                filing an incorrect tax return but could add to the taxpayer’s
                burden.
                The W&I Division is responsible for making the revision(s)
                to this content. We alerted management to the above
                condition, and they are taking steps to address these issues
                to ensure content managed outside the CMA is accurate
                before being posted to IRS.gov.
                These errors occurred because the W&I Division does not
                have a process to monitor content managed outside the
                CMA. The W&I Division stated that it did not have
                sufficient resources to develop a process to do so. If
                developed, this monitoring process would ensure the content
                is reviewed and suggested revisions are received and made
                prior to the updating of the content on IRS.gov.
                Key quality assurance procedures are not effective
                Although IRS management developed a number of
                procedures to ensure IRS.gov content is accurate, the
                procedures are not always consistently or effectively
                functioning as intended. For example:
                •   Comments from taxpayers alerting the IRS of possible
                    errors in IRS.gov content were not always provided to
                    the responsible W&I Division function for action. Also,
                    once the comments were received by the responsible
                    function, action was not taken to address the concerns.
                    The vendor did not forward to the W&I Division for
                    review 11 of 25 taxpayer emails we sampled. The
                    emails contained comments detailing potential errors on
                    IRS.gov and were submitted via IRS.gov for the period
                    January through April 2004. As of August 2004, 3 of
                    the 11 potential errors were still present on IRS.gov.
                    In addition, our auditors submitted three comments
                    through IRS.gov to report inaccuracies relating to
                    IRS.gov content. No changes had been made to address
                    the inaccuracies 1 month after the comments had been
                    submitted. We confirmed with the vendor that it
                    forwarded 2 of the 3 comments to the W&I Division
                    within 2 days of receipt of the comments. The third
                    comment was not forwarded to the IRS until we raised
                    the issue.
                                                                        Page 7
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement

                    This occurred because IRS management did not provide
                    sufficient oversight of the vendor. In addition,
                    procedures were not developed to ensure that, once
                    comments were received in the W&I Division, the
                    comments were timely addressed and, if appropriate,
                    reported inaccuracies were corrected.
                •   Procedures for reviewing and approving IRS.gov
                    content changes are not consistently followed. Reviews
                    of changes made to W&I Division IRS.gov content were
                    not always documented. The IRS was unable to provide
                    documentation to support the required reviews for 11 of
                    17 IRS.gov content changes selected for review.
                    To ensure IRS.gov content is complete and accurate,
                    guidelines require that a Staff Summary Report
                    (Form 12956) be prepared. All affected functions,
                    including the function that owns the content, must
                    review any content changes. The various reviewers are
                    required to document their reviews by initialing
                    Form 12956 before any changes are posted to IRS.gov.
                    However, IRS management does not have an oversight
                    process to ensure the reviews are completed and
                    documented. In addition, functions were not always
                    aware of the requirements, in part because guidelines
                    were not specific concerning the appropriate use of
                    Form 12956. For example, guidelines indicate that
                    certain content changes do not need to go through the
                    complete clearance process. However, the guidelines do
                    not specify whether the Form 12956 is required in these
                    instances.
                •   Procedures for documenting annual certification are not
                    consistently followed and should be improved. A review
                    of the documentation of the W&I Division’s first annual
                    certification identified that two of the five functions
                    reviewed did not maintain documentation detailing the
                    specific content reviewed. In addition, one function did
                    not use the required checklist when reviewing content.




                                                                     Page 8
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement

                    Annual certification of content, which is associated with
                    the Tax Return Filing Season Readiness Program,6 is to
                    be maintained by each function and is required to be
                    completed no later than mid-December each year. The
                    process requires content owners to prepare a checklist
                    acknowledging that all content is current and has been
                    reviewed for accuracy. These checklists are required to
                    be forwarded as support for each executive’s overall
                    certification memorandum.
                    The documentation inconsistencies can be attributed to
                    not having formal procedures at the time the first annual
                    certification was performed. Additionally, although
                    formal procedures have since been published, they do
                    not require that functions maintain a listing of the
                    content actually subjected to certification.
                Taxpayers who rely on inaccurate content on IRS.gov
                could be adversely affected
                The IRS considers the web site as an extremely useful
                communication tool that provides an opportunity, for
                example, to answer taxpayers’ questions and make IRS
                publications available electronically. It encourages its
                functions to use the web site to communicate information to
                taxpayers, such as tips that might help to decrease taxpayer
                errors or reduce confusion. According to an IRS Press
                Release, IRS.gov offers taxpayers a place to get the latest
                about tax happenings that may change how they file their
                returns.
                The Internet has revolutionized the IRS’ ability to serve
                taxpayers and their representatives. The IRS has used the
                Internet to meet taxpayer demands for quick access,
                user-friendly tools, and better service and will continue to
                use the Internet to reduce burden.
                Inaccurate information posted on IRS.gov can cause
                taxpayer burden and could affect taxpayer compliance. If
                not addressed, these concerns will intensify as increasingly
                more taxpayers rely on information available on IRS.gov to


                6
                  The Tax Return Filing Season Readiness Program is a coordinated
                effort by the IRS to ensure all aspects of IRS operations are prepared for
                the upcoming filing season.
                                                                                  Page 9
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement

                comply with their tax obligations. For example, during
                March 2004, there were over 22 million visits by the general
                public to IRS.gov, with almost 34 percent (7,583,306) of
                these visits to content managed by the W&I Division.

                Recommendations:

                The Chief Information Officer should:
                1. Develop a process to ensure only authorized personnel
                   have access to IRS.gov content.
                Management’s Response: IRS management issued interim
                guidelines to document the need to carefully monitor users’
                access and permissions and notify the ETA office of any
                necessary changes. In addition, the business units are
                required to annually review and certify their permissions
                and users’ access history.
                These guidelines will be formalized into a new section of
                Internal Revenue Manual (IRM) 2.25, IRS Portal and
                Extranet Usage Standard. This IRM will outline the
                requirements for ensuring content on the IRS.gov web site is
                accurate.
                The IRS will also integrate the IRS.gov CMA access into an
                online process (called Online 5081), so each user annually
                certifies his or her need for CMA access, and will explore
                upgrading the current CMA to a new version which will
                significantly enhance the process for assigning permissions.
                2. Enhance the IRS’ content management software
                   application (currently the CMA) to provide the ability to
                   identify specific content accessed or revised by
                   individual users.
                Management’s Response: The IRS will explore the
                feasibility of upgrading the CMA to a new version which
                incorporates a number of enhancements, including the
                ability to create multiple versions of content items.




                                                                    Page 10
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement

                3. Ensure the vendor responsible for reviewing and
                   forwarding comments detailing potential content
                   inaccuracies on IRS.gov is forwarding the comments to
                   the appropriate business unit for action.
                Management’s Response: IRS management has issued
                more specific guidance to the vendors to ensure inquiries are
                forwarded to the appropriate IRS employees for resolution.
                In addition, the IRS will revise “Guidelines for Responding
                to IRS.gov Escalations” to provide that escalations
                (forwarded comments) will no longer be closed due to lack
                of response from the IRS after two reminder notices.
                Instead, these escalations will be referred to the ETA office
                for follow-up.
                The Commissioner, W&I Division, should:
                4. Revise current guidelines to include procedures to
                   monitor the content managed outside the CMA, much
                   like those required for CMA content, to ensure the
                   information is accurate when posted to IRS.gov.
                Management’s Response: IRS management implemented
                additional procedures for content outside the CMA tool that
                included new requirements, such as a 100 percent final
                review of content before it is uploaded to IRS.gov. The new
                procedures will be included in an update to IRM 11.55.1,
                W&I Division Internet Content Publishing Process
                Management Document.
                5. Develop a process to monitor comments received via
                   IRS.gov, and forwarded through the vendor to the
                   W&I Division, to ensure potential inaccuracies are
                   addressed.
                Management’s Response: IRS management will revise
                IRM 11.55.1 to provide specific guidance to the W&I
                Division functions for monitoring and resolving IRS.gov
                comments. In addition, the revised guidelines will require
                oversight tracking of responses.
                6. Develop a process to ensure functional areas are
                   consistently adhering to procedures regarding the review
                   and approval of changes to content as well as the
                   performance of the annual certification, including the
                   retention of documentation to verify work performed.
                                                                     Page 11
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement

                Management’s Response: IRS management will issue
                guidance in IRM 11.55.1 to require each W&I Division
                function to maintain documentation to support the review
                and approval of content changes and the performance of the
                annual certification.
                Quarterly conference calls will be conducted with the field
                to reemphasize adherence to procedures and to address any
                concerns. Quarterly reviews to ensure adherence to
                procedures will also be conducted.




                                                                    Page 12
                     Processes Used to Ensure the Accuracy of Information
                     for Individual Taxpayers on IRS.gov Need Improvement

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the Internal Revenue Service (IRS)
has an effective process to ensure the information provided to Wage and Investment (W&I)
Division taxpayers on the IRS public Internet site is accurate. To accomplish this objective, we:
I. Determined whether the IRS has an effective content management process to ensure W&I
   Division information available to taxpayers on IRS.gov is current and accurate.
    A. Determined whether only authorized W&I Division personnel are able to change or add
       content on IRS.gov by determining whether the IRS has effective procedures for adding,
       changing, or deleting authorizations that allow personnel to change content on IRS.gov.
       We reviewed the W&I Division IRS.gov permissions listing as of May 17, 2004, to
       determine whether all 56 people listed were employed by the W&I Division.
    B. Determined whether proper approvals were obtained for content posted on IRS.gov.
        1. Interviewed responsible officials in the W&I Division Earned Income Tax Credit;
           Field Assistance; Stakeholder Partnerships, Education, and Communication; and
           Submission Processing functions to determine the process followed to ensure all
           content is properly approved. We selected these functions due to the significance of
           the IRS.gov content they manage.
        2. Selected and reviewed a judgmental sample of 17 Content Publishing Requests. This
           included the 2 Content Publishing Requests prepared by the Field Assistance function
           for Fiscal Year 2004 and a judgmental sample of 5 Content Publishing Requests each
           from the Earned Income Tax Credit; Stakeholder Partnerships, Education, and
           Communication; and Submission Processing functions from all 113 Content
           Publishing Requests prepared by the W&I Division in Fiscal Year 2004. We
           determined whether proper approvals were obtained prior to posting on IRS.gov via
           the sign-off documentation, Staffing Summary Sheet (Form 12956). We used a
           judgmental sample because we did not plan to project the results.
II. Determined whether the IRS has an effective oversight process to ensure W&I Division
    information on IRS.gov is accurate.
    A. Determined whether content is reviewed at least annually.
        1. Reviewed content posted outside the Content Management Application1 to determine
           whether it was timely updated. Specifically, we analyzed a judgmental sample of
           Frequently Asked Questions (FAQ) (92 reviewed by subject matter experts and

1
 The Content Management Application is a software application that allows authorized users to directly manage
Internet content by adding, modifying, or deleting content on IRS.gov.
                                                                                                        Page 13
              Processes Used to Ensure the Accuracy of Information
              for Individual Taxpayers on IRS.gov Need Improvement

       23 reviewed by the Office of Chief Counsel) from the over 840 FAQs to determine
       whether the FAQs on IRS.gov were correctly updated to reflect reviewer comments.
       We used a judgmental sample because we did not plan to project the results.
B. Determined whether the W&I Division Annual Certification gives assurance that IRS.gov
   content has been reviewed for accuracy.
   1. Interviewed responsible officials in the W&I Division Accounts Management; Earned
      Income Tax Credit; Field Assistance; Stakeholder Partnerships, Education, and
      Communication; and Submission Processing functions to determine the process
      followed to meet annual certification goals (e.g., ensuring accountability for all
      content and that all requests to add, update, and delete content were completed
      timely).
   2. Reviewed and analyzed all documentation submitted from the content owners and
      other content providers to determine whether all content was reviewed for accuracy.
C. Determined whether the process the IRS uses to solicit input from the public regarding
   content on IRS.gov is effective.
   1. Reviewed emails received by the IRS.gov Helpdesk and judgmentally selected a
      sample of 25 emails from a universe of 44,347 emails submitted during the period
      January through May 2004, to determine the action taken in response to the emails.
      We used a judgmental sample because we did not plan to project the results.
   2. Sent three emails to the IRS.gov Helpdesk reporting possible errors related to
      information on IRS.gov to determine whether the errors were corrected.




                                                                                       Page 14
                  Processes Used to Ensure the Accuracy of Information
                  for Individual Taxpayers on IRS.gov Need Improvement

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell Martin, Audit Manager
Edith Lemire, Lead Auditor
Lena Dietles, Senior Auditor
Robert Howes, Senior Auditor
Grace Terranova, Senior Auditor
Jerry Douglas, Auditor
Sylvia Sloan-Copeland, Auditor




                                                                                         Page 15
                 Processes Used to Ensure the Accuracy of Information
                 for Individual Taxpayers on IRS.gov Need Improvement

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Customer Account Services SE:W:CAS
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Earned Income Tax Credit SE:W:EITC
Director, Strategy and Finance SE:W:S
Chief, Performance Improvement SE:W:S:PI
Director, Electronic Tax Administration OS:CIO:I:ET
Director, Stakeholder Partnerships, Education, and Communication SE:W:CAR:SPEC
Director, Submission Processing SE:W:CAS:SP
Director, Internet Development Services OS:CIO:I:ET:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 16
                                  Processes Used to Ensure the Accuracy of Information
                                  for Individual Taxpayers on IRS.gov Need Improvement

                                                                                                                          Appendix IV


                                  Wage and Investment Division Organization Chart
                                            Areas With IRS.gov Content

Each of the following Wage and Investment (W&I) Division functions is responsible for
information on IRS.gov, either as an owner of the content or, in the case of the Strategy and
Finance function, for the overall management of W&I Division content on IRS.gov.




                               Health Coverage Tax Credit
                                                                        COMMISSIONER                           Earned Income Tax Credit




          Strategy & Finance




                         Customer Assistance,
                         Relationships, and                                    Customer Account                           Compliance
                         Education (CARE)                                       Services (CAS)




                                 Stakeholder
      Media &                   Partnerships,                             Accounts                Submission
    Publication                Education, and        Field Assistance   Management                Processing
                               Communication
                                  (SPEC)




Source: Internal Revenue Service internal web site.




                                                                                                                                       Page 17
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement

                                                       Appendix V


  Management’s Response to the Draft Report




                                                           Page 18
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement




                                                       Page 19
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement




                                                       Page 20
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement




                                                       Page 21
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement




                                                       Page 22
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement




                                                       Page 23
Processes Used to Ensure the Accuracy of Information
for Individual Taxpayers on IRS.gov Need Improvement




                                                       Page 24
